     Department of Health and Human Services

            OFFICE OF
       INSPECTOR GENERAL




     PHYSICIAN PARTICIPATION IN THE

    VACCINES FOR CHILDREN PROGRAM





.


                      JUNE GIBBS BROWN
                      Inspector General

                           JUNE 1995
                         awM-93-oo320
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Setvices (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by ovemeeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                HEADQUARTERS                   OTHER REGIONS

Betty Apt, Team Leader                Mark Ihshat, SC.D.             Suzanne Johnson, Chicago
Jackie Andrews, Project Leader        Ann O’Connor                   Carolyn Neuwirth, Dallas
Josiah Townsel                                                       Michael Sullivan, Boston
Tammy Bonney

For additional copies of this report, please contact the Atlanta Regional Office at 404-331-
4108.
     Department of Health and Human Services

            OFFICE OF
       INSPECTOR GENERAL




     PHYSICIAN PARTICIPATION IN THE

    VACCINES FOR CHILDREN PROGRAM





.                      fJi    SERVIC&$
                  @                      “G.
             ~+                             ‘?


            g                                    JUNE   GIBBS BROWN
            <                                    Inspector   General
            $
            %
             %++         +

                                                          JUNE  1995
               >      4*daa
                                                        OEI-04-93-0032(-J
                EXECUTIVE                          SUMMARY


PURPOSE

To identify issues affecting physician participation   in the Vaccines   for Children
program.

BACKGROUND

The Public Health Sewice (PHS) launched a major initiative to help increase
immunization levels for 2-year-olds. Rates for the complete vaccine series increased
from about 50 percent in 1991 to 66 percent in the first quarter of 1994. However,
the goal is to reach 90 percent. One part of the PHS initiative is the recently enacted
Vaccines for Children program (VFC) which allows the Federal government to
purchase vaccines from manufacturers and provide the vaccines free to physicians who
participate in the program. Participating physicians can use the free vaccines to
immunize children enrolled in Medicaid, Native American children, Alaskan Native
children, and children without insurance. Children who have insurance but the
insurance does not cover immunizations (“underinsured’ children) are also eligible for
VFC program vaccines, but only at Federally Qualified Health Centers or Rural
Health Clinics.

Prior to the VFC program, 12 States were providing free vaccine to private physicians
to immunize all children in their States. The States are commonly referred to as
universal States. Most universal States had a 90 percent or more physician
participation rate.

The Centers for Disease Control and Prevention (CDC) asked for assistance from the
office of Inspector General to identify and describe barriers to physician participation
in the VFC program. We conducted this study in response to that request. To
identi~ issues that affect physician participation in an immunization program, we
surveyed 669 physicians practicing in five States that were already providing free
vaccines to private physicians to immunize all children in their States. To put
physician responses in context with their State policies, we sumeyed immunization
program officials in 11 of the 12 universal States. We then interviewed immunization
program officials from 21 non-universal States. We gathered our data in August and
September 1994, the two months immediately preceding the programs start-up date,

FINDINGS

Paperwork   requhments    could dikcoumge some physkians @m pam”tipting in the WC
P~

Fifty-two percent (135 of 260) of the physicians we surveyed said paperwork
requirements in their universal State programs were excessive. However, their


                                               i
universal programs only required one form. Under the VFC program, physicians have
to complete three one-page forms. Sixteen percent of the physicians we surveyed said
they do not expect to enroll in the VFC program due to excessive paperwork
requirements. Physicians also said two forms, Provider Profile Form and Patient
Eligibility Screening Record, provide unreliable information.

Ii        vaccine deliwy systermcod       dhcoumge      physichn participation

Thirty-eight percent (38 of 101) of the physicians from States with drop points and 31
percent (49 of 159) of the physicians from States with direct delivery systems
complained about the efficiency of their State delivery systems. If physicians
participating in the VFC program experience similar vaccine delivery problems, they
may drop out of the VFC program.

Luck of vaccine &livery systems in some   States   h.       physician partic@ation

According to VFC legislation, Federal funds are to finance delivery of program
vaccines. However, only one vaccine manufacturer would agree to a delivery contract
at the federally capped vaccine price. As a result, no Federal delivery system has
been established, and CDC continues to explore other delivery options. Thirty-five
States have established their own delivery systems for private providers, and at least
ten of the remaining fourteen States reported they plan to do so this year. All States
are delivering vaccines to the public sector.

Nwly emablirhed maxiiwm allbwabli vaccine a&nh&ration fees for physicians could
help overcome a barrier to physiciizn pdcipatim

Prior to the VFC program, the fees States allowed physicians to charge parents for
administering State-purchased vaccines discouraged some physicians from participating
in universal States. To illustrate, 25 percent (64 of 260) of the physicians we surveyed
said the fees States allowed them to charge were inadequate. For the VFC program,
the Health Care Financing Administration established significantly higher fees that
physicians can charge parents for administering vaccine. The new rates are
comparable to what physicians were charging parents to administer privately-
purchased vaccines. Thus, the fees should not be a barrier to physician participation
in the VFC program.

RECOMMENDATIONS

The CDC should continue to develop an efficient and reliable vaccine accountability
mechanism. The CDC officials said they are presently reexamining other ways to
obtain information intended to be provided by the provider profile. We encourage
CDC to continue this effort, and also examine the efficacy of the Patient Eligibility
Screening Record in universal States.




                                             ii
The CDC should continue to explore alternative delivexy systems and should examine
the efficiency of both drop-point and direct delivery systems. Physicians we surveyed
described problems with both types of delivery systems.

AGENCY COMMENTS

The Assistant Secretary for Health commented on our draft report and concurred with
our recommendations.     He expressed CDC’S concerns that the accountability system
for the VFC program balance the need for accountability with the need for a system
that encourages physician participation and reported that CDC is continuing to
develop accountability systems. Further, he stated that CDC is committed to
establishing a delivery system for States who do not choose to deliver vaccines
themselves.

The Assistant Secretary for Health, the Health Care Financing Administrator, and the
Assistant Secretary for Planning and Evaluation provided additional points of
clarification and technical comments which we responded to by editing portions of the
report.




                                           ...
                                          111
                         TABLE                    OF CONTENTS

                                                                                                                      PAGE
 =KxJmvE            suMMARy

 -OIXKI’ION
         .
 . . . . . . . . . . . . . . . . .                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1
 FINDINGS

 Paperwork Requirements              ....................
                                                                             . . . . . . ..,.OO
 . . . . . . . . . . . 6

 Inefficient Vaccine DeliveVSystems                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


Lack of Vaccine DeliveVSystems                 In Some States . . . . . . . . . . . . . . . . . . . . . . . .                   9

                                                                                                                         . .

Newly Established Maximum Alowable Vaccine
Administration Fees . . . . . . . . . . . . . . . . . . . . . .

                                                                          . . . . . . . . . . . . . . . . . . . . . . . . . . 9

RE~MMENDmoNs                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11

APPENDICES

Criteria for Selecting States For Physician Sumey . . . . . . . . . . . . . . . . . . . . . . . . A-1


Physician Enrollment Form, Protider Profile Form, and Patient

Eligibility Screening Record . . . . . . . . . . . . . . . . . . . . . .
                                                                         . . . . . . . . . . . . .-.$O
 . B-1

Vaccine Usage Report          ......................
                                                                            . . . . . . . . . . . . . . . . . . . . . . c-l
Maximum Vaccine Administration                Fees By State              . . . . . . . . . . . . . . . . . . . . . . . . D-1


Agency Comments         . . . . . . . . . . . . . . . . . . . . . .

                                                                       . . . . . . . . . . . . . . . . . . . . . . ..O E-1

                             INTRODUCTION

PURPOSE

To identify issues affecting physician participation in the Vaccines for Children
program.

BACKGROUND

Millions of American children are at risk of severe illness and possible death from

childhood diseases such as measles, mumps, rubella, polio, diphtheria, pertussis,

tetanus, hemophilus b influenza, and hepatitis B. The Advisory Committee on

Immunization Practices and the American Academy of Pediatrics regularly issue

guidelines to health care providers on scheduling childhood immunizations. They

currently recommend that all children complete a schedule of vaccinations by 18

months of age that includes four doses of diphtheria, tetanus, and pertussis (DTP)

vaccine; three doses of oral poliovirus (OPV) vaccine; one dose of measles, mumps,

and rubella (MMR) vaccine; and a complete series of Hemophilus influenza type b

vaccine. In November 1991, the Advisory Committee also recommended three doses

of hepatitis B vaccine.


Between 1989 and 1991, several major outbreaks of measles refocused Federal

attention on childhood immunizations. The number of measles cases increased from

approximately 3,400 cases in 1988 to 28,000 cases in 1991. In response to this concern

and the need to develop a sustainable system, PHS launched the Childhood

Immunization    Initiative (CII). The CII is a comprehensive approach to increase

immunization    levels for children under the age of two. A major goal of the initiative

is to increase immunization levels for two-year-old children to at least 90 percent for

the most critical doses in the vaccination schedule by 1996. The initiative would

achieve this goal by improving immunization delivery services, increasing community

participation, educating parents, monitoring disease and vaccination coverage,

improving vaccines and vaccine use, and reducing the cost of vaccines.


In 1991, the number of children two years of age who had completed the

recommended immunization schedule was only about 50 percent. In 1992, this had

increased to 55 percent. In 1993, the immunization level had increased to 67 percent.

In the first quarter of 1994, the rate changed slightly to 66 percent. However, this is

still far below the national goal of 90 percent for the complete series by the year 2000.





        .
        ‘The Adviso~ Committee on Immunization Practices is composed of representatives from
Federal and State health agencies, medical schools, and associations representing various health groups.


                                                    1
Vaccines fm Children Rqgmm

To reduce the cost of vaccines to parents (one of the goals of the CII), Congress

authorized the Vaccines for Children program (VFC) as part of the Omnibus Budget

Reconciliation Act (OBRA) of 1993. The VFC program allows the Federal

government to purchase vaccines from manufacturers at discounted prices and provide

the vaccines free to physicians who participate in the program. Participating

physicians can use the free vaccines to immunize children enrolled for Medicaid,

Native American children, Alaskan Native American children, and children without

insurance.


Children who have insurance but the insurance does not cover immunizations

(“underinsured” children) are also eligible for VFC program vaccines, but only at

Federally Qualified Health Centers (FQHCS) or Rural Health Clinics (RHCs)~

Many State oi%cials have expressed concern that such a policy would create a barrier

to underinsured children getting immunized. They are concerned that if physicians

refer underinsured children to FQHCS or RHCS for immunizations, an opportunity to

immunize is lost. Underinsured children will go to a private physician’s office for

other health care because they have insurance coverage. When this happens, the

physician has an opportunity to screen the child’s immunization status and immunize

the child on the spot. However, if the physician refers the child to a FQHC or RHC

for immunizations, the parent may not follow-through with or may delay getting their

child immunized. Studies have shown that such missed opportunities contribute to

why children are not adequately immunized.


The VFC program began October 1, 1994, and is administered by the Centers for

Disease Control and Prevention (CDC).


P@sician Pwtici@ation

The national goal is to    increase immunization levels of 2-year-olds for specific antigens
to 90 percent by 1996.      Widespread participation of physicians in the VFC program is
considered essential to    achieve that goal. However, early in the program, medical
societies indicated that   many physicians might not be willing to participate in the VFC
program.

The CDC asked for assistance from the Office of Inspector General to identi& and
describe barriers to physician participation in the VFC program. We conducted this
study in response to that request.




        2Federally Qualified Health Centers and Rural Health Clinics serve medically underserved
areas and rural areas that meet qualifications for receiving grants under the Public Health Service
(PHS) Act. FQHCS include community, migrant, or homeless health centers receiving grants under the
PHS Act.


                                                 2
Uizi’wsd
      stales
Prior tothe VFC program, 12 States3were providing free vaccine to private
physicians toimmunize allchildren in their States. These States are commonly
referred to as universal States. Many universal States began their universal vaccine
programs during the 1960s when Federal funding for State-based immunization
programs began.

The Federal government provides grants to all States to purchase vaccines at the
Federal discount price and funds immunization program initiatives. These grants are
authorized under Section 317 of the PHS Act. With the inception of the VFC
program, universal States have additional Federal funds to purchase vaccine for their
Medicaid, uninsured, Alaskan Native American, and Native American children.

Universal States rely heavily on private physicians to immunize children because they
have very limited public health clinics. Most physicians participate in their universal
State programs. The following chart illustrates the percentage of physicians who
participated in universal State programs in 1992.

                     PHYSICIAN PARTICIPATION IN UNIVERSAL
                            STATE VACCINE PROGRAMS
                               PERCENT
                        100

                         ao

                         80

                         70

                         @o

                         60

                         40

                         So


                         20


                         10


                          0

                          ‘M         NC   AK   WY     GTMERI           SD    VT    MA      NH

                                                         STATE

                  Note   Ratea are estimates provided by immunization program officials.   Idaho is
                  not shown beeause participation ratea were not available.




Washington became universal in 1990, and North Carolina in 1992. This may explain,
in part, why they do not have as high physician participation rate as the other



         3Alaska, Connecticut, Idaho, Maine, Massachusetts, New Hampshire, North Carolina, Rhode
Island, South Dakota, Vermont, Washington, and Wyoming.


                                                          3
universal States. North Carolina did, however, achieve a 70 percent participation rate
within six months after the program began. North Carolina’s success is primarily due
to strong support from medical societies which lobbied the State legislature to fund
the program.

As of March 1995, three other States (New Mexico, Nevada, and North Dakota) have
become universal.

Non-Uiniwmil Stwes

Most non-universal States have public health departments and clinics. In many non-
universal States, it is common for physicians to refer children to public health
departments for immunizations. For example, a recent study in New York showed 50
percent of the physicians surveyed referred all or some of their patients elsewhere for
vaccinations.4 According to the study, the primary reason for such referrals was the
lack of insurance to cover the cost of immunizations.

Some non-universal States have experience with distributing free vaccines to private
physicians because they were purchasing vaccine at the Federal contract price to
distribute to Medicaid physicians, commonly referred to as a Medicaid Replacement
Program. State health departments purchased and distributed free vaccines to
Medicaid physicians, and Medicaid reimbursed the State health department. Non-
universal States also distributed free vaccines to public health clinics for childhood
immunizations.

METHODS

To identify issues affecting physician participation in the VFC program, we first
surveyed physicians practicing in universal States. We believed we could learn from
physician experiences in those universal State programs. We asked what problems
they had previously encountered and which features of the VFC program would
influence their decision to participate. We then considered how the issues identified
by physicians in universal States might affect the willingness of physicians in non-
universal States to participate in the VFC program. (We did not survey physicians in
non-universal States because, at the time of our survey, many of these States
postponed notifying physicians about the VFC program due to delays in establishing a
Federal vaccine delivery system.)

We selected five universal States in which to conduct the physician survey-­
Washington, South Dakota, North Carolina, Massachusetts, and Connecticut. These
States were chosen primarily because they represent different regions of the country.
Appendix A further describes our criteria for selecting these States.



         4Nlorbidity and Mortality Weekly Report, “Physician Vaccination Referral Practices,” Vol. 44,
No. 1, January 13, 1995.


                                                   4
In each of the States, we obtained a list of physicians from the American Board of
Mediml Specialties' official directo~of certified specialists. From the list of
pediatricians, family, and general practice physicians we randomly selected 150
physicians from each State, fora sample of 750 physicians. We dropped 81 physicians
from the sample because 30 did not give immunizations and 51 questionnaires were
not deliverable. This reduced the sample from 750 t0669 physicians.

Ourresponse rate was39 percent (2600f669).        We are unable to perform anon-
respondents analysis due to alackof demographic data inour sampling frame. Thirty
of the physicians we surveyed returned questionnaires indicating they did not give
immunizations because they were retired, subspecialists, in academic medicine, or did
not treat patients two years of age or younger. We believe a large number of
physicians may not have responded for these same reasons. It is quite likely that, for
physicians immunizing young children, we may have a much higher response rate. In
any event, we believe our results are informative and generally representative of
physicians providing immunization services.

To put physician responses in context with their State policies, we surveyed
immunization program officials in 11 of the 12 universal States. One of the 12
universal States chose not to participate in our survey. We conducted site visits in
seven universal States and mailed standardized questionnaires to the remaining five
States.

We then interviewed immunization program officials from 21 non-universal States to
obtain information on how they were implementing the VFC program and their
perception of issues affecting physician participation in non-universal States. We
interviewed the non-universal State officials at regional meetings sponsored by CDC.
The 21 States include the District of Columbia. For the purpose of this study, we will
refer to the District of Columbia as a State.

To obtain an understanding of the VFC program, we interviewed officials from the
National Immunization Program and the National Vaccine Program Office. We also
interviewed representatives from the American Academy of Pediatrics, American
Medical Association, and the American Academy of Family Physicians. We reviewed
laws and implementation guidelines for the program, and reports regarding State
vaccine programs and related subjects.

We collected data between August and September       1994, the two months immediately
before the program start-up date.

This report describes (1) the effect of VFC program requirements on physician
participation in universal States, and (2) the potential effect of these issues on
physician participation in non-universal States.

We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.


                                            5
reports. However, States can elect to continue requiring them, Appendix C shows an
example of a vaccine usage report.

The physicians we surveyed said that it is time-consuming and cumbersome to break
down doses administered by age groups as the vaccine usage reports require.
Physicians said they did not take the vaccine usage reports seriously and often guessed
at the reported information. Officials in some universal States reported that some
physicians did not comply with this requirement.

Physicians informed us that the Provider Profile Form provides unreliable information.
Physicians said they do not have a credible basis for estimating, by eligibility category,
the number of children they expect to immunize. Thus, the estimates on the provider
profile do not provide an accurate basis for States to apportion costs of vaccines
between 317, VFC and State funds. Some State officials said they can estimate the
number of children to be immunized better than physicians. For example, States can
look at State Medicaid records to determine the number of Medicaid children eligible
for program vaccines.

The Patient Eligibility Screening Record was cited as unreliable for two reasons. First,
the law does not require that a child’s eligibility be verified. Therefore, parents could
misrepresent their child’s eligibility status. Second, physicians are only required to
complete the Patient Eligibility Screening Record at the time of the first immunization.
However, a child’s VFC eligibility status may change after the first immunization. For
example, it is not uncommon for families to frequently go on and off Medicaid during
the course of a child’s immunization schedule. In addition, physicians said the Patient
Eligibility Screening Record is superfluous in universal States because they provide
free vaccines to all children and do not have to differentiate between which children
are eligible for VFC program vaccines.

The Physician Enrollment Form should not be a problem for physicians who
previously completed a similar enrollment form in their State universal program.

Non-Uhivtmal States

We expect that physicians in non-universal States will have similar concerns about
paperwork as those cited by physicians in universal States. As noted earlier, fifty-two
percent of the physicians in universal States said the paperwork in their State universal
program was excessive (even though they were only required to complete one form for
their State program).

Physicians in universal States said they cannot provide reliable estimates for the
provider profile. Physicians in non-universal States may also be unable to provide
reliable estimates.

Although physicians in universal States said the Patient Eligibility Screening Record
was superfluous in universal States, this record could serve a purpose in non-universal


                                             7
States. It could act as a deterrent for abuse, and provide physicians a means to
determine if a child is eligible for VFC program vaccines.

To further illustrate the problem of excessive paperwork, we note that paperwork was
one reason why States did not have success in getting physician participation in their
Medicaid vaccine replacement programs. For example, when North Carolina was a
non-universal State they conducted a study to determine the extent of participation in
their Medicaid replacement program. The study showed that 79 percent of the
physicians said they did not participate in the replacement program because of
excessive paperwork.5

INEFFICIENT VACCINE D ELIVERY SYSTEMS COULD DISCOURAGE
PHYSICIAN PARTICIPATION

Delivery systems generally fall into two categories. Vaccines may be delivered to a
State depot and then shipped directly to physicians, or vaccines maybe delivered to a
State depot and then shipped to “drop points” within a State, such as local health
departments, clinics, and local hospitals. In drop-point systems, physicians must
arrange to pick up vaccines from the drop points.

Wlivmal
     Stutei$
Eight of the universal States we surveyed have direct delivery systems, three have

drop-point systems. In the States where we surveyed physicians, South Dakota, North

Carolina, and Massachusetts have direct delivery systems; while Washington and

Connecticut have drop-point systems. Thirty-eight percent (38 of 101) of the

respondents from States with drop points and 31 percent (49 of 159) of the

respondents from direct delivery systems complained about the efficiency of their State

delivery systems!


Physicians identified problems applicable to both direct delivery and drop-point

systems including vaccines not being delivered on time and in the correct quantities

ordered. Physicians said when such problems occur, they must turn patients away and

an opportunity to immunize is missed.


Physicians in States with drop-point systems cited additional problems including


   �
        pick-up times at drop points are frequently inconvenient,

   �
        physicians or their employees must drive long distances to drop points,


        ‘Garrett, J., “The Impact and Implications of Referrals to Health Departments for
Immunizations:   University of North Carolina, September, 1992.

        %here is no statistically significant difference behveen the number of complaints in drop-point
systems and the number of complaints in direct delive~ systems.


                                                    8
  �	
       drop point employees are busy, andphysicians ortheir      employees have
       experienced long waits to obtain vaccines, and

  �	
       after driving long distances, and waiting for service, physicians are sometimes
       told that vaccines are not available.

State ofilcials in States with direct delive~ systems contend direct delivery is better
because it facilitates communication between State agencies and physicians. For
example, they put letters, pamphlets, and new immunization schedules in with vaccine
shipments.

Non-Uirivemd i?htes

The delivery of vaccines to physicians in non-universal States may present a particular
problem for the VFC program. If physicians perceive inordinate vaccine delive~
problems, they may be less likely to participate, especially if children who are eligible
for the VFC program represent a small portion of the physician’s practice. Likewise,
if physicians experience vaccine delivery problems while participating, they may drop
out of the program. Inefficient vaccine delivery systems not only lose the opportunity
to immunize but can also hinder the relationship between the physician and patient.

LACK OF VACCINE DELIVER Y SYSTEMS IN SOME STATES IMPEDES
PHYSICIAN PARTICIPATION

According to VFC legislation, Federal funds are to finance delivery of program
vaccines. Only one vaccine manufacturer would agree to a delivery contract at the
capped vaccine price, so no Federal delivery system has been established. However,
CDC continues to explore other delivery options.

All States are delivering vaccine to the public sector which accounts for about 50
percent of the nation’s immunizations. For private provider delivery, as of March 30,
1995, 35 States (including all 12 universal States) have established vaccine delivery
systems using available Federal funding. Alaska also has a distribution system;
however, they operate a centralized distribution system separate from the VFC
program. At least 10 of the remaining 14 States reported they plan to begin delivering
vaccine this year. This lack of private sector delivery has impeded private physician
participation in these 14 States.

NEWLY ESTABLISHED MAXIMUM ALLOWABLE VACCINE
ADMINISTRATION FEES FOR PHYSICIANS COULD HELP OVERCOME A
BARRIER TO PHYSICIAN PARTICIPATION

Prior to the VFC program, physicians could charge parents a fee for administering
free vaccines in universal States. Most universal States allowed physicians to charge
parents from two to ten dollars per dose. Some universal States did not specify an
amount, but told physicians they could charge parents a “reasonable” amount. The


                                             9
allowable fees, however, discouraged some physicians from participating in State-
sponsored programs. To illustrate, 25 percent (64 of 260) of the universal State
physicians we surveyed said the fee their State allowed was inadequate. Twelve
percent (31 of 260) of the physicians we surveyed said the amount physicians were
allowed to charge parents was important to getting physician participation in the VFC
program.

Under the VFC program, the Health Care Financing Administration (HCFA)
established maximum allowable vaccine administration fees that physicians in each
State could charge parents. The maximum allowable fees represent a cap, not a
required amount. However, if universal States adopt HCFA’S maximum allowable
fees, physicians in universal States will be allowed to charge parents significantly more
than they were allowed to charge previously under their State program. The
maximum allowable fees are comparable to what physicians charge parents to
administer privately-purchased vaccines. Therefore, the newly established rates should
encourage physician participation in the VFC program.

HCFA based the maximum allowable rates partly on studies done by the American
Academy of Pediatrics (AAP). Under a HCFA contract, AAP conducted a survey of
physicians to obtain national data on administration fees for pediatric immunizations.
The survey showed that the average administration fee to private pay patients for each
dose of pediatric vaccine is $15.09. The HCFA then adjusted the average rate for
geographic cost differences to establish a maximum allowable physician fee for
administering VFC vaccines. The maximum rates were set based on charge data
rather than cost data which was required by law. HCFA plans to revise the maximum
rates based on cost data. Appendix D shows, by State, the maximum fees established
by HCFA.

State Medicaid agencies are not obligated to set their Medicaid VFC administration
fees at the maximum level established by HCFA. However, 13 of the 21 non-universal
States we surveyed said they would do so, or they would establish a slightly lower fee.
To encourage physician participation in the VFC program, several non-universal States
are offering additional incentives. For example, one State has offered an additional $5
to physicians for every new child they get to complete the immunization series.
Another State plans to pay physicians $3 for each dose administered, to offset
paperwork requirements.




                                            10

                   RECOMMENDATIONS

Physician participation in the VFC program is essential to reach the National goal to
increase immunization levels of 2-year-olds for specific antigens to 90 percent by 1996.
Our study showed that unreliable, burdensome accountability requirements and
inefficient vaccine delivery systems could adversely affect a physicians’ decision to
participate in the program. Therefore, we make two recommendations that we believe
will further the goals of the VFC program.

       to develbp @iciknt and reliizble vaccine accountizbility rnedumiwns.
continue


The CDC should explore alternative means to obtain the information intended to be
provided by the provider profile. For example, States could use Medicaid records to
determine how many Medicaid children are eligible for VFC program vaccines. Other
records may be readily available to determine how many uninsured, underinsured,
Native Alaskan American, and Native American children are eligible. States could
conduct random sample surveys of physicians to confirm these projections. The CDC
is already reexamining how to validate the provider profile information through
implementing a usage based system. CDC is conducting a study to evaluate methods
of accountability for VFC vaccines based on actual vaccine usage data. We encourage
CDC to continue these efforts.

In addition, CDC should examine the efficacy of the Patient Eligibility Screening
Record in universal States. These States may already have effective systems in place
to accomplish what was intended by the Patient Eligibility Screening Record. The
CDC has told us they are aware of this issue and are examining the legal and policy
implications.

Contbu4e to explore altematiw vaccine deliwy systems.

Obviously, the lack of vaccine delivery systems to private providers in fourteen States
impedes physician participation in the VFC program as well as the ability of the
program to increase childhood immunizations in those States. The CDC informed us
that they are working with interested parties to establish vaccine delivery systems.

In addition, CDC should examine the efficiency of drop-point systems and direct
delivery systems. Physicians we surveyed described problems with both types of
delivery systems. If physicians experience vaccine delivery problems while
participating, they may drop out of the program.




                                           11

                   AGENCY               COMMENTS


The Assistant Secretary for Health commented on our draft report and concurred with
our recommendations.     He expressed CDC’S concerns that the accountability system
for the VFC program balance the need for accountability with the need for a system
that encourages physician participation and reported that CDC is continuing to
develop accountability systems. Further, he stated that CDC is committed to
establishing a delivery system for States who do not choose to deliver vaccines
themselves.

The Assistant Secretary for Health, the Health Care Financing Administrator, and the
Assistant Secretaxy for Planning and Evaluation provided additional points of
clarification and technical comments which we responded to by editing portions of the
report. Appendix E shows the full text of the comments.




                                          12

                          APPENDIX                   A


                   SAMPLE OF FIVE UNIVERSAL STATES
                           FOR PHYSICIAN SURVEY




               (Source STATE YELLOWBOO~       VOL. ~ No. 1, Spring 1993)



NOTES:

1.    The sample reflects geographic and demographic diversity.
2.	   Two New England States were selected because half of the 12 universal States
      are in that region.




                                       A-1

       APPENDIX          B




    PHYSICIAN ENROLLMENT FORM

       PROVIDER PROFILE FORM

PATIENT ELIGIBILITY SCREENING RECORD




               B-1
                                                                 Provider Enrollment
                                                             Vaccines for Children Program                                          =

    Physician or Cfinic

    Address

               ()
                                                                                     ()
               Telephone
                                                                                     Fax
   Contact Name(s)

   Employer Identification Number
  IS your practicdctinic a Federtily Qualified He~tb Center (FQHC) or R~ He~ti CliniC (RHC)?           YN

  In order to participate in the Vaccines for Children (VFC) program and/or to receive other federally procured
                                                                                                           —      No
                                                                                                                 vaccine  provided
  tome at no COSLI, on behalf of myself and any and all practitioners associated with this medical office, group practice, Health
  Maintenance Organization, health departmen~ community/mi~atimrd          clinic, or other entity of which (you are the physi­
  cian-in-chief or equivalent) agree to the following:

   1.	 WC program-purchmed vaccine will be administered only to a child (48 years of age) who: (a) is on Medicaid (or
        qualifies through a State’s Medicaid waiver), or (b) has no health inswance, or (c) is an American Indian or Alaskan
        Native, or (d) has health insurance that does not pay for the vaccine (applicable only to vaccines administered by or on
        behalf of a FQHC or RHC).
  2.	 I will maintain records of the authorizedrepresentative’sresponsesfor a period of 3 years, unless State requirements call
       for a longer duration. Release of such records will be bound by the privacy protection of Federal Medicaid law.
  3. If requested, I will make such records available to the State or the Department of Health and HumaTIServices (DHHS).
  4.	 I will comply with the appropriate immunization schedule, dosage, rmd contraindications, that is established by the DHHS
       Advisory Committee on Immunization Practices, unless (a) in making a medid judgment in accordance with accepted
       medical practice, I deem such complianm to be medically inappropriate or (b) the particular requirement is not in compli­
       ance with the law of my State, including State laws relating to religious or other exempt.ions.#
 5.	 I will provide vaccine information materials and maintin records in accor~ce with the National Childhood Vaccine
      Injury Act.*
 6. I will not impose a charge for the cost of the vaccine.*
 7.	 I will not impose a charge for the adminismation of the vaccine in any amount higher than the maximum fee established by
      DHHs.
 8.	 I will not deny administration of a federally procured vaccine to a child due to the inability of the child’s parent/gutiditi
      individud of record to pay an adminiswative fee. *
 9. I will comply with the State’s requirements for ordering vaccine and other requirements as outlind on the attached
10.	 form(s).*
     I or the State may terminate this agreement at any time for personal reasons or failure to comply with these
    requirements.*



    provider Signature
                                                                                                                             Date
    This record is to be subrnittd to and kept on file at the State Health Department or State Public Health Agency and must be
    updated in accordance with State policy.

    *If a provld~r~elves v~~ne purchmti off f~erd                    contracts, but is not enrolled in the WC program, then the provider is
    only required to agree to these conditions.

   # Note: The ACIP Immunization Schedule is compatible with the AAP recommen&tions.

For State use onty (enter date in onty one box):

Date certified fm VFC:
                                                    II Me certifkd for vaccine purchased off Federal conrract.s,excluding VFC:
                                                                                                                                         1
Date MM       for VW and othez vaccine purchased off Fedd   contracts:
                                                          Provider Profile
                                                    Vaccines for Children Program                             @K!?%_l
    Date:

 All public and private healthcare providers approved by the State for participation in the Vaccines for Children Program (WC)
 must complete this form. This document provides shipping information and helps the State determine the amount of vaccine to
 be supplied through the VFC program. The form also maybe used to compare estimated vaccine needs with actual vaccine
 supply. The State or Immunization Project must keep this record on fde with the “Provider Enrollment” form. The Provider
 Profile form must be updated annually or more frequently if (1) estimates of children served changes, or (2) the status of the
 facility changes (e.g., private provider becomes an agent of a Federally Qualified Health Center). This form may be completed by
 one provider for the entire practice.

A. Employer Identiilcation Number:

B. Facility Name:
         or
  Provider Name:
                      Lmt Name                                                     First Name                            MI

C. Contact Name(s):
                       Last
                          Name                                                       First Name                              Ml

D. Vaccine Delivery Address (no PO Boxes):


       City                                                               State                            Zipcode

       ()                                                           ()

      Telephone                                                     Fax


E. Type of Facility (please check only one box):


c1 10         Public Health Department
o     11      Public Hospital
o     12      Other Public
Q     13      Federally Qwdified Health Center or Rural Health Clinic
                         (check here ifan agent of a FQHC or RHCfor the VFC program) Cl
0  20         Private Practice (Individual or Group)
Cl 21         Private Hospital
c1 22         Other Private
                                                                  <1 y= old           1 through 18 years                Total

F. For the 12-month period beginning 10/1/94,
estimate the numbers of children who will receive
vaccinations at your practice/clinic.

G. Of the total numbers entered above, how many                      Note: Do not count a child in more than one category.
children are expected to be VFC eligible because they ara

                                        Emolled in Medicaid

                                    Without health insurance

                        American Indian or Ataskan Native

                                               Underinsured*

                                                          Total

‘* Complete only if E -13 above & checked (either box).



              —
                                          Patient Eligibility Screening Record                                    I
                                                 Vaccines for Children Program                  =

 Date


 Child
         kt     Name
                                                                     First Name                          MI
 Date of Birth


Parent/Guardian/
Individual of Record

                              Last Name
                                                                     First Name
                                                                                                        Ml


Provider


A record must be kept in the healthcme provider’s office that reflects the status of all children 18 years of
age or younger, who receive immunization through the VFC program. The record may be completed by
the parent, guardian or individual of record, or by the healt.hca.reprovider. This same record may be used
for all subsequent visits as long as the child’s eligibility status has not changed. While verification of
responses is not required, it is necessary to retain this or a similar record for each child receiving vaccine.



‘II@ child qualifies for vaccination through the VFC program because hekhe (check only one box):

   (a)        is enrolled in Medicaid
                                                                               �    or

   (b)         does not have health insurance
                                                                               c1   or

   (c)        is American Indian or Alaskan Native
                                                                               c1 or
   (d)        has health insurance that Does Not pay for vaccines

  (Applicable only to children attending a Federally Qualified Health Center   c1   or

  or Rural Health Clinic.)

APPENDIX         C




VACCINE USAGE REPORT




       c-1
                                                                               QUARTERLY VACCINE USAGE REPORT
                                                                                AGE-SPECIFIC DOSES ADMINISTERED


              Name      of Health         Care Provider                                                                                                  I
                                                                                                                                                             Quarter:        [   ] 1   (Jan-Mar)
              Addres=                                                                                                                                                        [   12    (Apr-June)
                                                                                                                                                                             [   13    (July-Sept)
                                                                                                                                                             Year:           [   14    (Ott-Dee)
              Telephone                        -


              Person     Completing                Report


              Enter on the appropriate  line designated for each vaccine, the total number of doses given of each vaccine                                               according       to age
              groups indicated.  Please DO NOT use hash marks. Use additional copies for worksheets.


                  Type                                                                     TOTAL        DOSES      GIVEN,   BY PATlENT    AGE-GROUP
                    of
                                          <1                1             2      3-4              5         6-9     10-14     15-19      20-24   25-44       45-64       65 +          Total
                 Vaccine
         DTP
         DT (peals)
        ‘Td (adult)                   ;        :        ,:, ~~~ :“ ,:.’       : . .,:; ““’ ;.:.::,,’;   ,! ,, “:

         HibTITER
         PedvaxHIB
         OOPOVO

         I.P,V,

         M/M/R                                      I
         Influenza                     .=
         Hep B (infant)


              This report is authorized by law (42 USC 247b. 42CPR 51 b.) and is to be submitted by the 5th working day of each quarter.
              Its submission is needed to provide effective program management and is a condition of immunization project grant awards.




)istnbution    White -tmmunizatmn   Program Yellow-Provider                                                                                                                            06-E PI-IZ.1 10 IWqrn
       PUBLIC  HEALTH SERVICE   (PHS) C()~ENTS    ON THE OFFICE    OF
 INSPECTOR    GENERAL (OIG)   DRAFT REPORT   “PHYSICIAN   PARTICIPATION
      IN THE VACCINES   FOR CHILDREN   PROGRAM, ” 0EI-04-93-O0320


OIG     Recommendation

We recommend           that       the        Centers          for   Disease         Control         and
Prevention          (CDC):

1.	       Continue       to      develop    efficient                and      reliable           vaccine
          accountability             mechanisms.

PHS     Response

We concur.           Financial               accountability             is     an    essential             part    of
the Vaccines           For       Children          (VFC) program.                   The States       have
primary        responsibility                 for accounting       for              vaccine.        Given

their      30 plus        years         of    experience     managing                 immunization

programs,    the   States    are                  in the best position                    to account              for

vaccines   because      of their                    knowledge of unique                   circumstances

and provider     practices.

The OIG report             documents         concerns        that      additional            paperwork
requirements          will      discourage          physicians           from      participating           in
the    VFC program.             Because        of this       concern,           CDC has developed
an accountability               system       for the VFC program                   that      balances      the
essential        need      for    accountability             with      the      mandate        to
encourage        physicians          to participate              i.n the        program.          If   CDC
had     required      providers          to report         each      immunization
transaction,          they     would       be burdened           with      filling         out    and
sending        in over       14 million          pieces      of paper           a year.

The CDC is continuing              to develop      additional         accountability
mechanisms     .     CDC officials          have met with        States     to review
State    accountability         plans       and to identify         promising
approaching       to accountability.              The CDC is also           working   with
Battelle     to pilot      test      additional      accountability       .
                                                                              methods  in
selected        States.

Recommendation

2.       Continue         to     explore          alternative           vaccine          delivery            systems.

PHS     Response

We   concur.      The CDC is committed             to establishing          a delivery
system    for those         States    which do not choose           to deliver
vaccines     themselves.           Initially,      as requested        bv the States,
CDC proposed        distributing          vacc~ne    to p~ivate       ph~sicians      in                                -
selected     States       through     a national       distribution       center.
However,     the Congress          preferred      having      the private      sector
carry    out this      vaccine      distribution.           Accordinglyf       in
September      1994, CDC began negotiations                   with vaccine




           —
                                                                                         2



manufacturers          with anticipation       of delivery      to private

physicians        in December. On April 10, CDC had to discontinue

these     negotiations.            Although final    agreement     was reached   with

one manufacturer,            it was determined       that   time was not

available       to reach        agreements  with the remaining

manufacturers.            CDC is now holding       meetings     with interested

parties      to determine          the most appropriate       manner to conduct

this    vaccine      delivery.


Despite this, it should be recognized that VFC vaccine is

being delivered to tens of thousands of public and private

providers. All States are delivering vaccines to public
clinics, which account for about 50 percent of immunizations
nationwide.         In addition, as of March 30, 35 States                    had
informed     CDC that     they were delivering            vaccine    to enrolled
private     providers.        All of the remaining           14 States      reported
they plan to begin          delivering       vaccine    to private      providers
this    year or next year.            [Alaskar     which already       delivers
vaccines     to all    providers       in the State,       is not participating
in the VFC program.         ]
‘%*Me	
                                                                                 TtIe Admmwataf
                                                                                 Washingran. D,C,   20201




         DATE         MY 22 ~
         To          June
                        Gibbs
                            Brown
                     ~     ~~                                 ~
                                                   &w
                                               #
         FK)M        Bruce
                         C Vhi
                     Adcainistrator

         suBJEcr	 OSicoof IhspeaorGeneralDraft Reporr Thygician Paniaip4tion in the
                  Vatzines for-ulikkcn Prop’  (oELcw34&q               -

         We *d      the abmc-kced         draft report whichidenm    iraaa8 -g           phyafckm
         P**        m**   Weeirwa for CM&Enprugfakn,and mcomnwadsthat the Centers
         fix ~       Coaxl md ktiOII   COIL$UUCm ti   cffec&o AOM tO imp      the
         VJK#IIOdehery syatam W. have a fewedicorhl conuB~~ whiohare attached for
         your mficw.

         Thmlkyou$orthe   oppmtuity to cmunent of! this draft rep:

         A-eat
         .lv\,   !,,   (


     **V                    ‘,





 Jig
    $

.
.:
                                   DEPARTMENT OF HEALTH& HUMAN SERVICES                                 Office   of the Secretary
:
  7,
   .0
     ‘+ ,,”,1,,                                                                                         Washington,     D.C.   20201
        7




                                                              JUN     9 !995




                            TO:	          June Gibbs Brown
                                          Inspector General

                            FROM:         Assistant Secretary
                                          for Planning and Evaluation
                                                                                                                 .—
                            SUBJECT:	     OIG Draft Report: “Physician Participation in the Vaccines for Children
                                          Program,” OEI-04-93-O0320


                            Thank you for providing me with a draft of the above mentioned report for review and
                            comment. I understand that the Public Health Service and the Health Care Financing
                            Administration are also reviewing the report and will be providing your office with specific
                            comments. We would defer to their expertise and experience with the VFC program in
                            addressing any concerns they might have with the report. In addition, we would suggest that
                            a clarification be made within the Executive Summary and the body of the report emphasizing
                            that the data was collected prior to the implementation of the VFC program on October 1,
                            1994. While some states may have informed their physicians about the anticipated
                            requirements of the VFC program prior to October 1, 1994 other states may not have done so
                            by the time data was collected.




                                                               .’



                                                                     DavidT.Ellwood




                            Prepared

                                   by Amy Nevel,OASPE

